TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                              Office of Inspections and Evaluations




                  Inspection of the Internal Revenue Service’s
                            Home-to-Work Programs


                                              June 6, 2011

                             Reference Number: 2011-IE-R003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3d=Identifying Information - Other Identifying Information of an individual




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                        DEPARTMENT OF THE TREASURY
                                              WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     June 6, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                           R. David Holmgren
                                 Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                        Final Inspection Report – Inspection of the Internal Revenue Service’s
                                 Home-to-Work Programs (# IE-10-018)

 This review was initiated at the request of the Assistant Secretary for Management and Chief
 Financial Officer of the Department of the Treasury. This report presents the results of our
 inspection to determine the Internal Revenue Service’s (IRS’s) compliance with 31 United States
 Code (U.S.C.) Section (§) 1344, Passenger Carrier Use, and Treasury Directive 74-06, Home-
 to-Work Transportation Controls.1

 Synopsis
 We interviewed IRS executives and managers and reviewed relevant documentation to determine
 the steps taken to obtain proper authorization to implement Home-to-Work Programs within
 Criminal Investigation and the Small Business/Self-Employed Division. We also analyzed
 records and documents to determine if they met the requirements contained in 31 U.S.C. § 1344
 and Treasury Directive 74-06.
 We determined that Criminal Investigation and the Small Business/Self-Employed Division
 operated their Home-to-Work Programs for more than eight years without proper authorization
 from the Secretary of the Treasury. Additionally, only in this past year did the Small
 Business/Self-Employed Division determine that its employees’ home-to-work use of a
 Government vehicle might result in a taxable fringe benefit to its employees. Furthermore, both


 1
     TD 74-06, dated March 20, 2002, applies to all Department of the Treasury bureaus.
                 Inspection of the Internal Revenue Service’s
                           Home-to-Work Programs




Criminal Investigation and the Small Business/Self-Employed Division did not meet all the
record keeping requirements prescribed by the statute and the Directive.

Recommendations
We made two recommendations to the Chief, Criminal Investigation, and the Commissioner,
Small Business/Self-Employed Division that they: revise their procedures to ensure all home-to-
work transportation requests are completed in a timely manner and meet all the requirements
contained in the Treasury Directive 74-06; and record home-to-work related accidents to comply
with the Directive and applicable General Services Administration requirements. We also made
three recommendations specific to Criminal Investigation and five to the Small Business/Self-
Employed Division addressing record keeping, internal controls, and taxable fringe-benefit
determinations.

Responses
Both Criminal Investigation and the Small Business/Self Employed Division provided adequate,
detailed responses to our memorandum. Criminal Investigation and the Small Business/Self-
Employed Division have implemented or are implementing corrective action related to each
recommendation, except for the installation of Global Positioning Systems. As recommended,
Criminal Investigation considered our suggestion to install Global Positioning Systems, but
believes that installing systems on all vehicles to establish a uniform monitoring program has
marginal benefit, and that implementing other recommendations will help monitor potential
misuse. The Small Business/Self-Employed Division’s management agreed with our
recommendation, but cannot commit to a system at this time. They will evaluate systems to
determine whether a suitable system is available. Criminal Investigation’s complete response is
included as Appendix IV, and the Small Business/Self-Employed Division’s complete response
is included as Appendix V.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                2
                                      Inspection of the Internal Revenue Service’s
                                                Home-to-Work Programs




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          I. Home-to-Work Programs Lacked Proper Authorization.......................... Page 3
                    Recommendations 1 and 2: .............................................. Page 4

          II. Record Keeping Requirements Were Not Met ....................................... Page 4
                    Recommendation 3:........................................................ Page 6

                    Recommendation 4:........................................................ Page 7

                    Recommendations 5 through 8:......................................... Page 9

          III. Determinations of Taxable Fringe Benefits Were Not
               Made or Documented in All Instances .................................................. Page 10
                    Recommendation 9:........................................................ Page 10

                    Recommendation 10: ...................................................... Page 11

          IV. Allegations of Misuse and Review of Reported Accidents ................... Page 11
                    Recommendations 11 and 12: ........................................... Page 14

          V. Use of Agency-Wide Shared Services Fleet Vehicles ............................ Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Criminal Investigation - Management’s Response
          to the Draft Report ........................................................................................ Page 20
          Appendix V – Small Business/Self-Employed Division -
          Management’s Response to the Draft Report ............................................... Page 24
         Inspection of the Internal Revenue Service’s
                   Home-to-Work Programs




               Abbreviations

ALERTS   Automated Labor and Employee Relations Tracking System
AWSS     Agency-Wide Shared Services
CI       Criminal Investigation
ExFON    Excise Fuel On-Line Network
FCA      Fuel Compliance Agent
FCO      Fuel Compliance Officer
FY       Fiscal Year
GPS      Global Positioning System
GSA      General Services Administration
IRM      Internal Revenue Manual
IRS      Internal Revenue Service
SB/SE    Small Business/Self-Employed Division
SHIMS    Safety and Health Information Management System
TD       Treasury Directive
U.S.C.   United States Code
                              Inspection of the Internal Revenue Service’s
                                        Home-to-Work Programs




                                        Background

This review was conducted in response to a request from the Assistant Secretary for
Management and Chief Financial Officer at the Department of the Treasury. While the Assistant
Secretary and his staff were conducting a review of the Departmental Home-to-Work Program
and policies, they determined that the Internal Revenue Service (IRS) might have initiated home-
to-work transportation programs without the proper approval from the Secretary of the Treasury.
The IRS provides Government vehicles to special agents in its Criminal Investigation (CI)
function; fuel compliance officers (FCOs) and fuel compliance agents (FCAs) in its Small
Business/Self-Employed (SB/SE) Division; and certain other employees through a Fleet Program
managed by the Agency-Wide Shared Services (AWSS) function. As of Fiscal Year (FY) 2010,
CI, the SB/SE Division, and AWSS had more than 3,300 Government-owned or leased vehicles
available for official use. Specific employees are allowed to use these vehicles for transportation
between the employees’ homes and various work locations.
                     Figure 1: Breakout of the Number of Vehicles in
                            the IRS Transportation Programs

             IRS Office              Total Number of       Government-Owned or Leased
                                   Vehicles in Inventory
        CI                                2,935                  Government-Owned
        SB/SE Division                     105                         Leased
        AWSS                               324                         Leased
        Total                             3,364
       Source: IRS Inventory Systems.

The primary statute that addresses home-to-work issues is 31 United States Code (U.S.C.)
Section (§) 1344, Passenger Carrier Use. This statute prescribes how vehicles may be used, by
whom, and under what circumstances. The statute allows Federal employees to drive
Government vehicles from their home to their place of employment, i.e., home to work and work
to home under limited circumstances. The circumstances that may justify home-to-work
authority are when it is:
   •   Required for the performance of field work;
   •   Essential for the safe and efficient performance of intelligence, counterintelligence,
       protective services, or criminal law enforcement duties; and
   •   Necessary due to highly unusual circumstances that present a clear and present danger,
       the existence of an emergency, or some other compelling operational considerations that
       make such transportation essential to the conduct of official business.
                                                                                            Page 1
                                   Inspection of the Internal Revenue Service’s
                                             Home-to-Work Programs




The justification for the use of home-to-work authority must be approved in writing by the head
of the agency, and the authority to approve a request may not be delegated to any other official.
The Department of the Treasury’s Treasury Directive (TD) 74-06, Home-to-Work
Transportation Controls,1 establishes the policy and sets forth responsibilities and reporting
requirements concerning the official use of a Government passenger carrier between an
employee's home and place of employment. It prescribes how requests for authorization are to
be completed, what they should contain, and when they are due to the Department of the
Treasury. Further, it requires that employees maintain daily mileage logs and other records
necessary to establish that home-to-work transportation was used for official purposes. It also
states that an employee’s use of Government provided home-to-work transportation and/or
parking may result in the attribution of “fringe-benefit income” to the employee.
This review was performed at CI field offices located in Washington, D.C.; Dallas, Texas; and
Atlanta, Georgia; and AWSS field offices located in Chicago, Illinois; the New York, New York
area; and Philadelphia, Pennsylvania; during the period of August 2010 through January 2011.
We also visited St. Paul, Minnesota, to review the vehicle expense documentation of FCOs and
FCAs located in the Brockton, Massachusetts; Atlanta, Georgia; and Bethlehem, Pennsylvania;
SB/SE Division field offices.
This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Detailed information on our
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




1
    TD 74-06, dated March 20, 2002, applies to all Department of the Treasury bureaus.
                                                                                           Page 2
                                  Inspection of the Internal Revenue Service’s
                                            Home-to-Work Programs




                                       Results of Review

After interviewing IRS officials, reviewing related Internal Revenue Manual (IRM)2 procedures,
and conducting on-site reviews of documents and logs related to the use of Government vehicles,
we determined there is no single official or office responsible for ensuring that the provisions of
31 U.S.C. § 1344 and TD 74-06 are met. CI and SB/SE Division senior officials initially had not
secured the approval of the Secretary of the Treasury for their respective Home-to-Work
Programs and, as such, violated 31 U.S.C. § 1344. Additionally, officials have not established
sound controls to ensure that appropriate records and vehicle logs required by TD 74-06 are
properly maintained, and have not established procedures designed to detect possible misuse of
Government vehicles. Further, the officials have not formally documented any determinations as
to whether or not the use of the Government vehicles by their employees results in a taxable
fringe benefit to them. The details applicable to CI and the SB/SE Division are presented
together, and our observations pertaining to AWSS are provided separately.
I. Home-to-Work Programs Lacked Proper Authorization
The Secretary of the Treasury must conclude, in writing, that there are sufficient grounds for a
Department of the Treasury employee to be allowed to use a Government vehicle to drive from
home to work. However, we found that CI lacked authorization for its special agents to use
Government vehicles for home-to-work purposes during the period of October 3, 2001 to
March 15, 2010, and that the SB/SE Division did not have authorization for its FCOs and FCAs
until July 28, 2010. We found no evidence that the original consolidated request for home-to-
work authorization for the IRS, including CI and the SB/SE Division, (dated October 3, 2001)
was ever approved. As a result, both functions operated their respective Home-to-Work
Programs for more than eight years without proper approval from the Secretary of the Treasury.
We have been unable to contact anyone in either the IRS or the Department of the Treasury
involved in the 2001 request to construct a complete picture of what occurred between 2001 and
2007. Had the original request been approved, the CI authorization would have expired within
five years (2006)3 and the SB/SE Division authorization within two years (2003).4 The SB/SE
Division officials submitted a new authorization request for their Home-to-Work Program to the
Department of the Treasury in May 2007. Subsequently, SB/SE Division officials contacted the


2
  The IRM contains the procedures, guidelines, policies, delegations of authority, and other instructional materials
related to the administration and operation of the IRS.
3
  Authorizations based on being essential for the safe and efficient performance of intelligence, counterintelligence,
protective services, or criminal law enforcement duties are approved for five years.
4
  Authorizations based on the need to complete field work are approved for two years.
                                                                                                               Page 3
                                  Inspection of the Internal Revenue Service’s
                                            Home-to-Work Programs




Department of the Treasury Fleet Program Manager at least four times inquiring about the status
of their request on October 30, 2007; January 10, 2008; November 21, 2008; and April 10, 2009.
While there is evidence to suggest that both the Department of the Treasury and the IRS staff
were aware that the authorizations were not received, we found that 31 U.S.C. § 1344 and
TD 74-06 clearly require that the head of the Federal agency approve, in writing, any requests to
use Government vehicles for home-to-work and work-to-home purposes. We believe that the
IRS must secure approval before allowing its employees to use Government vehicles for home-
to-work purposes.
Recommendations
      Recommendation 1: The Chief, CI, should ensure that policies and procedures are in
      effect to renew their respective home-to-work authority, as required by TD 74-06, and that
      renewal requests are timely completed and submitted to the Secretary of the Treasury for
      approval before any existing authority expires.
           Management’s Response: Management agreed with this recommendation. CI
           assigned a senior analyst to be responsible for drafting and implementing CI’s home-to-
           work policy. On January 25, 2011, CI submitted its most recent request for home-to-
           work authorization, which covers a five-year period.5
      Recommendation 2: The Commissioner, SB/SE Division, should ensure that policies
      and procedures are in effect to renew their respective home-to-work authority, as required by
      TD 74-06, and that renewal requests are timely completed and submitted to the Secretary of
      the Treasury for approval before any existing authority expires.
           Management’s Response: Management agreed with this recommendation. The
           SB/SE Division Director for Strategy and Finance has been designated to ensure that
           policies and procedures are in place to renew the SB/SE Division’s home-to-work
           authorities. Annually, the Director will notify the SB/SE Division’s business units about
           the requirement to obtain approval from the Secretary of the Treasury before Government
           vehicles are used for home-to-work purposes. The Office of Strategy and Finance will
           also coordinate the submission of authorization and renewal requests, and remind
           business units about their responsibilities when requests are approved.
II. Record Keeping Requirements Were Not Met
We found that neither CI nor the SB/SE Division met the record keeping requirements contained
in TD 74-06. The Directive requires that the IRS maintain logs or other records to verify the use
of home-to-work transportation for official purposes. The Directive also requires that requests


5
    The CI request was approved by the Secretary of the Treasury on March 16, 2011.
                                                                                             Page 4
                            Inspection of the Internal Revenue Service’s
                                      Home-to-Work Programs




for home-to-work authority contain assurance that the authority will not adversely impact
program budgets; therefore, costs associated with the program should be readily determinable.
Criminal Investigation
CI depends on its special agents to accurately document vehicle usage on a Home-to-Work and
Extraordinary Use Vehicle Log. This log contains the name and title of the employee assigned
to the vehicle, the name and title of the person authorizing the use, the vehicle identification
number, and the date of assignment. However, the log did not record all vehicle usage outside of
the normal scheduled tour of duty, as required by TD 74-06.
CI special agents did not capture all vehicle usage on the vehicle log
We found that a special agent’s use of his or her Government vehicle was not completely
recorded on the Home-to-Work and Extraordinary Use Vehicle Log. In interviews we conducted
with Supervisory Special Agents, they indicated that there was confusion about how callouts
should be reported on the log. A callout occurs when a special agent departs his or her home or
temporary home (not the duty location or other Government facility) more than two hours before
or after the special agent’s tour of duty, or when a special agent responds spontaneously from his
or her home. Additionally, any use of a Government vehicle outside the administrative
workweek is a callout.
CI officials stated that the Home-to-Work and Extraordinary Use Vehicle Log was revised in
December 2010 to ensure consistency between the TD 74-06 and home-to-work transportation
controls and reporting requirements. CI is now capturing vehicle usage according to three
categories:
   (1) Commutes occurring during an agent’s tour of duty;
   (2) Commutes occurring outside an agent’s normal tour of duty; and
   (3) All other vehicle uses outside the tour of duty.
CI has not provided sufficient home-to-work guidance to its staff
CI employees who are assigned a Government vehicle are also required to complete a monthly
Vehicle Expense Report in addition to the Home-to-Work and Extraordinary Use Vehicle Log.
Special agents are provided a fleet charge card which is used to purchase fuel and maintenance
expenditures such as oil changes, car washes, and tire rotations. Receipts for any purchase must
be attached to the Vehicle Expense Report and recorded for the day the expense was incurred.
Each expense on the Vehicle Expense Report must be reconciled to the special agent’s monthly
fleet charge card statement. The Home-to-Work and Extraordinary Use Vehicle Log and the
Vehicle Expense Report are submitted monthly to the Supervisory Special Agent.
We found, however, that there is limited guidance in the IRM for special agents to use in
preparing the Home-to-Work and Extraordinary Use Vehicle Log and Vehicle Expense Report.

                                                                                           Page 5
                             Inspection of the Internal Revenue Service’s
                                       Home-to-Work Programs




CI uses IRM 9.11.1, Fiscal and Budgetary Matters, and IRM 9.10.1, Vehicle Usage Reporting,
as its primary instructions for implementing its Home-to-Work Program. For example, the IRM
sections did not include definitions for an after-hours response. In addition, the IRM does not
document who is responsible for reviewing and approving the Home-to-Work and Extraordinary
Use Vehicle Log and Vehicle Expense Report.
CI has not determined the oversight responsibilities of its Home-to-Work Program
The CI Director of Strategy issued a memorandum entitled, “Reduction in Administrative
Burden” on November 20, 2001. According to this memorandum, Supervisory Special Agents
are no longer required to review or sign Vehicle Expense Reports. Instead, Supervisory Special
Agents should designate a non-special agent to review them. Because CI has not required
Supervisory Special Agents to review both the vehicle log and the expense report together, there
is a risk that indications of potential misuse could be overlooked. During our inspection, we
identified problems with the reporting and monitoring of vehicle mileage and expense
information. Specifically, we reviewed 146 vehicle folders and noted that receipts to support
purchases were missing from about 18 percent of the folders (27 of 146), and vehicle logs were
missing from nearly 14 percent (20 of 146).
The Supervisory Special Agent should be aware of the cases an individual special agent is
working on. The Supervisory Special Agent should note where fuel was purchased and ensure
that it corresponds to the locations of the cases the special agent is assigned. Likewise, the dates
and times of purchases should be reviewed against the special agent’s reported duty hours and
vehicle logs. By establishing a profile of “normal” total mileage, home-to-work mileage, and
expenses incurred by each special agent, exceptions should be more readily detected, and the
Supervisory Special Agent can properly follow up on any anomalies.
Another option would be to evaluate the benefits and potential drawbacks of obtaining and using
a Global Positioning System (GPS). The GPS is a radio navigation system that allows land, sea,
and airborne users to determine their exact location and velocity, 24 hours a day, in all weather
conditions, and anywhere in the world. Depending upon the type of system and system support
purchased, several aspects of vehicle use could be recorded and various reports generated. The
location of vehicles and whether they were moving or parked could be determined at anytime.
Additional examples of the data that could be tracked include vehicles driven at excessive speed
(e.g., above 75 mph), vehicles driven between the hours of 9 p.m. to 5 a.m., and vehicles driven
on weekends and Federal holidays. Such systems are routinely used by large commercial fleets
and increasingly by various law enforcement agencies.
Recommendations
The Chief, CI, should:
   Recommendation 3: Modify the IRM to define the elements of the Home-to-Work and
   Extraordinary Use Vehicle Log and Vehicle Expense Report. Additionally, the Chief, CI,

                                                                                             Page 6
                                  Inspection of the Internal Revenue Service’s
                                            Home-to-Work Programs




      should require that Supervisory Special Agents closely review and approve special agents’
      vehicle logs and related expense reports. These reviews should be structured to look for any
      indications of fraud or potential misuse of assigned Government vehicles, in addition to
      ensuring that mileage and fuel use are reported accurately.
          Management’s Response: Management agreed with this recommendation. The
          Chief, CI will update the IRM to provide greater detail on the elements of the Home-to-
          Work and Extraordinary Use Vehicle Log. Additionally, the Chief, CI will issue a policy
          memorandum stating the requirements for Supervisory Special Agents to review monthly
          vehicle logs, and instruct Supervisory Special Agents to review and sign the special
          agents’ monthly vehicle logs and related expense reports looking for potential misuse.
      Recommendation 4: Consider installing a GPS on all vehicles to establish a uniform
      monitoring program. Items to consider evaluating could include, but are not limited to, after-
      hours, high speed, and out of assigned geographical area use of vehicles.
          Management’s Response: Management considered our suggestion to install GPS, as
          recommended, but believes installing GPS on all vehicles to establish a uniform
          monitoring program will have a marginal benefit and is not warranted, given the limited
          level of misuse of Government vehicles. CI believes corrective actions related to
          Recommendation 3 will help monitor potential misuse of Government-owned vehicles.
Small Business/Self-Employed
FCOs and FCAs in the SB/SE Division’s Fuel Compliance Program review their monthly fleet
charge card statements for accuracy; attach all gas, maintenance, and repair receipts; sign the
statements; and forward them to their manager, who reviews the documents and signs the
statements. These documents are forwarded to the SB/SE Division’s Fleet Program Manager,
who receives a bill for the entire fleet each month. The Fleet Program Manager compares bills to
be certain that all are received from managers, and reviews receipts to extract data to track fuel
and other expenses.
While expenses are closely monitored, we found that the Fuel Compliance Program does not
consistently meet the basic record keeping requirements contained in TD 74-06 pertaining to
vehicle use. Prior to FY 2010, FCOs reported mileage and expenses in the Excise Fuel On-Line
Network (ExFON).6 The ExFON was discontinued and FCOs and FCAs in the Fuel Compliance
Program then relied on the GPS systems installed on vehicles to record mileage data. However,
that GPS system is not reliable and has stopped working on several occasions. Manual mileage
logs are required when the GPS is inoperable, according to the Memorandum of Understanding
between the SB/SE Division and the National Treasury Employees Union.



6
    ExFON was the integrated case processing and tracking system used by the IRS FCOs and group managers.
                                                                                                        Page 7
                                Inspection of the Internal Revenue Service’s
                                          Home-to-Work Programs




During our review of mileage data for the Fuel Compliance Program, we found that ExFON
mileage logs sometimes contained data entry errors that would have precluded managers from
obtaining valid mileage or expense totals. The ExFON and manual logs did not always provide
enough detail to determine whether home-to-work use occurred. Vehicle use outside the normal
scheduled tour-of-duty hours was not identified separately in any records we reviewed. Some
FCOs and FCAs did not prepare manual mileage logs for up to four months after their GPS
systems became inoperable.
The SB/SE Division provided us with vehicle mileage log data prepared from October 2009
through April 2010 for the Division’s vehicle usage study. We determined that for 100 FCOs
and FCAs, 649 monthly logs or equivalent GPS data should have been available, but data for
only 451 (70 percent) were received, and some of the information was incomplete. Employees
started using mileage logs when they were made aware of the oversight. Timely review of
vehicle mileage logs should have detected this sooner.
Since the Fuel Compliance Program does not use a standard vehicle mileage log for employees
to manually record mileage, employees may not have captured all home-to-work and work-to-
home mileage. Also, home-to-work mileage should be maintained in such a format that fringe
benefit income can be more easily determined for reporting on the Wage and Tax Statement
(Form W-2).7
Without complete mileage records, the Fuel Compliance Program does not meet the record
keeping requirement of TD 74-06. As a result, management could not ensure that the vehicles
were being used for official purposes only and could not determine whether employees were
liable for income taxes for personal use of these vehicles. Further, TD 74-06 requires that the
written request for authorization includes assurance that the home-to-work authority will not
adversely impact program budgets. In order to support such an assurance, the cost of allowing
employees to use the vehicles for commuting purposes should be readily determinable.
In response to our inspection and an audit currently being performed by the Treasury Inspector
General for Tax Administration’s Office of Audit,8 the SB/SE Division issued a directive to the
field offices clarifying what was necessary to reconstruct home-to-work records. The SB/SE
officials believe that this will help to produce the data required in the future to determine any
taxable income. In addition, the SB/SE Division will revise the IRM to clarify home-to-work
guidance. It will specifically cover the requirements of TD 74-06, including the information
employees must record and reviews managers will be required to complete.



7
  Transportation directly between the home and post of duty are generally taxable fringe benefits when home to
work transportation is provided for the performance of field work. Transportation between home and the field is
generally not a taxable fringe benefit.
8
  Treasury Inspector General for Tax Administration, Office of Audit, Audit Number 200910026, Review of Small
Business/Self-Employed Division Controls to Safeguard Fleet Charge Cards.
                                                                                                         Page 8
                           Inspection of the Internal Revenue Service’s
                                     Home-to-Work Programs




According to Fuel Compliance Program management, employees do not record after-hours
vehicle use; however, this type of use is limited. While the SB/SE Division anticipated more
after-hours use, experience shows that very rarely are FCOs and FCAs required to go to locations
to take samples or do inspections after their tours of duty. If this does occur, employees would
input new entries to record that they went out to do additional work after they went home.
Recommendations
The Commissioner, SB/SE Division, should:
   Recommendation 5: Develop a standard mileage log to properly capture home-to-work
   and after-hours vehicle use.
       Management’s Response: Management agreed with this recommendation. The
       SB/SE Division’s Excise Tax Program implemented a standard mileage log for capturing
       home-to-work and after-hours use on January 19, 2011, for Excise Tax Program vehicles.
   Recommendation 6: Modify the IRM to require managers to closely review and approve
   the FCOs’ and FCAs’ mileage logs and related vehicle charge card statements. The reviews
   should be structured to look for any indications of fraud or potential misuse of assigned
   Government vehicles, in addition to ensuring that mileage and fuel use are reported
   accurately.
       Management’s Response: Management agreed with this recommendation. The
       SB/SE Division’s Specialty Programs Excise Tax will modify the IRM as needed to
       require managerial review and approval for FCOs’ and FCAs’ mileage logs and related
       vehicle charge card statements.
   Recommendation 7: Ensure that cost data related to the Home-to-Work Program is fully
   documented to support the required assurance that the home-to-work authority will not have
   an adverse impact on program budgets.
       Management’s Response: Management agreed with this recommendation. By
       implementing corrective actions associated with recommendations 5 and 12, the SB/SE
       Division will have the necessary cost data to document the impact of the budget by their
       Home-to-Work Program.
   Recommendation 8: Consistent with the terms of the Memorandum of Understanding
   between the IRS and the National Treasury Employees Union, acquire a GPS and establish a
   uniform monitoring program. Items to consider evaluating could include, but are not limited
   to, after-hours, high speed, and out of assigned geographical area use of vehicles.
       Management’s Response: Management agreed with this recommendation. The
       SB/SE Division’s Specialty Programs Excise Tax plans to terminate the existing GPS
       Memorandum of Understanding. Although the SB/SE Division is not able to commit to a

                                                                                          Page 9
                                Inspection of the Internal Revenue Service’s
                                          Home-to-Work Programs




        GPS at this time, the Excise Tax Program will evaluate systems available through GSA in
        order to identify a suitable GPS. FCOs and FCAs will manually maintain standardized
        mileage logs and record after-hours use until a suitable GPS can be acquired.
III. Determinations of Taxable Fringe Benefits Were Not Made or
Documented in All Instances
TD 74-06 requires that the Department of the Treasury bureaus determine whether home-to-work
transportation provided to employees constitutes a taxable fringe benefit. If use of Government
vehicles for commuting and the parking provided for these vehicles are considered taxable fringe
benefits for employees, the IRS is responsible for keeping necessary records, reporting such
income on a Form W-2 and withholding any required taxes. Employees are liable for any
incurred taxes.
Criminal Investigation
The IRS’s Office of Chief Counsel stated that CI special agents’ use of Government vehicles for
home-to-work purposes does not constitute a taxable fringe benefit. According to the Tax
Reform Act of 1986,9 CI special agents are allowed qualified non-personal use of Government
vehicles. Generally, law enforcement officers who are required to drive a law enforcement
vehicle (either marked or unmarked) from home-to-work and are required to be available for
duty after-hours are exempt from reporting their use of a Government vehicle as a taxable fringe
benefit. However, in order to avoid misinterpretation of the applicable regulations, CI should
formally document its determination regarding the taxability of home-to-work benefits.
Recommendation
    Recommendation 9: The Chief, CI, should formally document management’s
    determination that a special agent’s use of a Government vehicle for commuting purposes
    does not constitute a taxable fringe benefit to the employee, and maintain a written record of
    the determination.
        Management’s Response: Management agreed with this recommendation. CI will
        formally document that a special agent’s use of a Government-owned vehicle for
        commuting purposes does not constitute a taxable fringe benefit.
Small Business/Self-Employed
During our inspection, the SB/SE Division officials determined that their employees’ use of
Government vehicles for home-to-work transportation should be considered a taxable fringe
benefit. The SB/SE Division performed a review of the employees’ mileage logs in an attempt

9
 Tax Reform Act of 1986, Pub. L. No. 99-514, 100 Stat. 2085 (codified as amended in scattered sections of
16 U.S.C., 19 U.S.C., 25 U.S.C., 26 U.S.C., 28 U.S.C., 29 U.S.C., 42 U.S.C., 46 U.S.C., and 49 U.S.C.).
                                                                                                        Page 10
                               Inspection of the Internal Revenue Service’s
                                         Home-to-Work Programs




to reconstruct home-to-work for a specific period of time to estimate the cost. 10 The SB/SE
Division officials believe they will have the information necessary for Calendar Year 2011 to
issue Forms W-2, if they determine that employees used Government vehicles to commute from
home-to-work or work-to-home. The SB/SE Division has to determine which available method
they will use for valuation of the income. The special $1.50 valuation is available when
employees are required to commute from home to work using Government vehicles; however,
FCOs and FCAs are not required to use these vehicles to commute to their post of duty.
Recommendation
The Commissioner, SB/SE Division, should:
     Recommendation 10: Formally document the determination that FCOs’ and FCAs’ use
     of Government vehicles for commuting purposes does constitute a taxable fringe benefit to
     the employees assigned vehicles and maintain a written record of the determination.
        Management’s Response: Management agreed with this recommendation. SB/SE
        Division management plans to issue guidance advising its employees about those uses of
        Government vehicles that constitute a taxable fringe benefit.
IV. Allegations of Misuse and Review of Reported Accidents
The IRS’s Guide to Penalty Determinations prescribes disciplinary actions for specific
infractions related to the misuse of Government-owned or leased vehicles. Employees who
willfully use or authorize the use of a Government vehicle, except for official purposes or
otherwise, violate 31 U.S.C. § 1344 and face disciplinary action of a minimum 30-day
suspension.
Allegations of Misuse
We analyzed the Automated Labor and Employee Relations Tracking System (ALERTS)11 to
determine the number of alleged cases of vehicle misuse by CI and SB/SE Division staff. We
found that for the period of October 1, 2004 through September 30, 2010, there were
81 allegations against CI employees and there were 14 against SB/SE Division employees.
Investigators were able to substantiate or prove the allegations in approximately 30 percent of the
cases. The remaining cases could not be substantiated, were unresolved, or open as of
October 2010 (see Figure 2).




10
   The review was performed using vehicle mileage logs from June 1, 2009, to May 31, 2010.
11
   The ALERTS contains information on reported allegations of employee misconduct and the subsequent actions
taken by the IRS management related to each case.
                                                                                                     Page 11
                             Inspection of the Internal Revenue Service’s
                                       Home-to-Work Programs




       Figure 2: Allegations of Vehicle Misuse within CI and SB/SE Division
       Resolution               CI          SB/SE Division          Total        Percent of Total
   Substantiated                24                 4                 28                 29.5%
   Not substantiated            42                 6                 48                 50.5%
   Unresolved                   13                 4                 17                 17.9%
   Open                         2                                     2                 2.1%
                   Total        81                14                 95
  Source: ALERTS database.

Approximately 46 percent of the cases (44 of 95) resulted in disciplinary actions or the
resignation or retirement of the employee being investigated. In nine cases, the employees under
investigation resigned or retired even though the allegations were not substantiated. About
54 percent of the cases (51 of 95) did not result in any disciplinary actions or are currently being
reviewed. Figure 3 documents the disciplinary actions that resulted from the investigations.
 Figure 3: Actions Related to Allegations of Misuse within CI and SB/SE Division
                              Actions taken by Management or Employee
                                                              CI       SB/SE Division     Total
     Employee removed from the IRS                            7               0            7
     Employee resigned or retired                             12              4            16
     Employee suspended for 30 days or more                   5               0            5
     Employee suspended for less than 30 days                 9               2            11
     Employee reprimanded/admonished                           4              0            4
     Alternative discipline in lieu of reprimand               0              1            1
     Total investigations that resulted in disciplinary action or separation from the
                                                                                           44
     IRS
     Closed without action                                    19              4            23
     Closed without adjudication                              1               2            3
     Clearance letter issued to the employee                  18              1            19
     Allegation withdrawn                                     1               0             1
     Cases still being reviewed                               3               0             3
     Other (not substantiated)                                2               0            2
     Total investigations without disciplinary action                                      51
     Source: ALERTS database.




                                                                                                Page 12
                                 Inspection of the Internal Revenue Service’s
                                           Home-to-Work Programs




Reported accidents
GSA’s Bulletin FMR B-15, Motor Vehicle Management, dated September 21, 2007, provides
that Federal agencies should develop a fleet management information system to collect and store
certain information for accident reporting. According to the bulletin, Federal agencies should:
      •   Capture summary accident data, including date/day/time, vehicles involved, vehicle
          operator, third party information, and downtime;
      •   Facilitate preparation of accident tracking and frequency reports; and
      •   Prepare exception reports that identify vehicles and/or operators who are deemed to need
          attention.
As stated previously, TD 74-06 requires that requests for home-to-work authority contain
assurance that the authority will not adversely impact program budgets; therefore, costs
associated with the program should be readily determinable. We believe accidents that occur
while commuting from home to work should be included in the cost of a Home-to-Work
Program.
CI does not track accidents involving Government vehicles outside of the Safety and Health
Information Management System (SHIMS).12 We reviewed the SHIMS and found that in
FYs 2006 through 2010, CI special agents were involved in 233 vehicular accidents. At least 27
of these accidents occurred while agents were driving to or from their home, or occurred at their
home.
                Figure 4: Analysis of Accidents Involving CI Special Agents

                                                                      Fiscal Year
                                    2010        2009           2008         2007     2006         Total
     Number of Accidents              38         42             34           59       60           233
     Accidents Occurring
     During Home to Work              8          5              1             5        8            27
     Source: The SHIMS database, as of September 30, 2010.13

Twelve special agents were involved in two reported accidents, and two other special agents
were involved in three accidents during the five-year period we reviewed.
Since CI did not routinely track whether the employees’ accidents occurred while commuting
from home to work, we could only determine that 27 of 233 accidents were home-to-work
related. This limits CI’s ability to assess the full cost of the Home-to-Work Program.


12
   The SHIMS is the Department of the Treasury's automated workers' compensation claim management and safety
incident tracking system.
13
   Of the 233 accidents reported in the SHIMS, 60 did not specifically indicate that they involved Government-
owned vehicles; however, CI management stated that they would have been Government-owned vehicles.
                                                                                                      Page 13
                                  Inspection of the Internal Revenue Service’s
                                            Home-to-Work Programs




In FY 2008, the SB/SE Division began tracking accidents as per GSA’s Bulletin FMR B-15. For
the period of FY 2008 through FY 2010, the Division recorded a total of 32 accidents. However,
we determined that not all of those accidents were recorded in the SHIMS, as they are required to
be.
The FCOs and FCAs are required to report accidents to their manager immediately. Managers
must report accidents to the Fleet Manager within 24 hours. Additionally, the IRM 1.14.5.3,
Occupational Safety and Health Program, requires supervisors and managers to ensure that
accidents and injuries (including near misses) are recorded in the SHIMS.
We did not identify any accidents involving FCOs recorded in the SHIMS for FY 2006 or
FY 2007. The FCAs were not hired until FY 2009.
     Figure 5: Analysis of Accidents Involving the SB/SE Division’s FCOs and FCAs

                                                          FISCAL YEAR
                                       2010        2009        2008         2007        2006        Total
      Number of Accidents               16          15           3           N/A        N/A          3414
      Source: SB/SE Division Excise Program Fleet Manager.

We determined that five FCOs were each involved in two accidents during the three-year period
for which records were maintained by the Division.
Additionally, the SB/SE Division did not track whether its employees’ accidents occurred while
commuting from home to work. This limits their ability to assess the full cost of the Home-to-
Work Program.
Recommendations
       Recommendation 11: The Chief, CI, should track accidents in accordance with GSA’s
       Bulletin FMR B-15, and track the cost of accidents that are home-to-work related in order to
       comply with TD 74-06.
           Management’s Response: Management agreed with this recommendation. CI will
           institute a system for tracking all accidents involving Government vehicles at the
           Headquarters level, using current reports to determine whether home-to-work accidents
           have occurred.
       Recommendation 12: The Commissioner, SB/SE Division, should track the home-to-
       work accidents and the related costs in order to comply with TD 74-06.




14
     Two additional accidents were recorded in the SHIMS before the SB/SE Division began tracking them.
                                                                                                          Page 14
                           Inspection of the Internal Revenue Service’s
                                     Home-to-Work Programs




       Management’s Response: Management agreed with this recommendation. The
       SB/SE Division will use the information currently reported to identify home-to-work
       accidents.
V. Use of Agency-Wide Shared Services Fleet Vehicles
Authorization
AWSS oversees the IRS Fleet Program for vehicles other than those in CI or the SB/SE Division
Fuel Compliance Program. AWSS does not have a Home-to-Work Program, and an
authorization from the Secretary of the Treasury was not requested. We found, however, that an
SB/SE Division employee (not in the Fuel Compliance Program) drove a Government vehicle to
his residence from the field with the approval of his first-line manager and territory manager.
   According to program management, the employee *****Code Number 3d***** was first
   issued a car in October 2001. A memorandum was prepared to justify use of the vehicle and
   the cost savings to the Government. The employee met with the Facilities Government Car
   Coordinator to discuss the rules and regulations governing the use of the vehicle. They
   discussed his plan to store the vehicle at his home, which would be permitted because the
   vehicle would be driven between his home and the field, but not to his post of duty. The
   employee no longer has a vehicle assigned to him and no other employees in the program are
   assigned a vehicle.
Tax matters
AWSS officials believe that employees driving AWSS fleet vehicles would have no taxable
fringe benefit income. According to SB/SE Division officials, the one SB/SE Division employee
who used a vehicle for his assigned field work did not use the vehicle to commute to his office.
Therefore, there was no personal use of the vehicle and no taxable income.
Record keeping
The AWSS vehicles are leased from GSA and assigned to groups or functions rather than to
individuals. While appropriate vehicle mileage logs are maintained, the logs used are not
required to meet all the requirements listed in TD 74-06 since AWSS has not implemented a
Home-to-Work Program.




                                                                                        Page 15
                               Inspection of the Internal Revenue Service’s
                                         Home-to-Work Programs




                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the IRS’s compliance with
31 U.S.C. § 1344, Passenger Carrier Use, and Treasury Directive (TD) 74-06, Home-to-Work
Transportation Controls. To accomplish our overall objective, we completed the following sub-
objectives.
I.      We interviewed the appropriate IRS executives and managers in CI and the SB/SE
        Division and reviewed relevant documentation to determine the reasons why the IRS did
        not obtain proper authorization to implement its Home-to-Work Programs.
II.     We requested documentation from the IRS’s Office of Chief Counsel to support the
        determination that CI special agents do not receive a taxable fringe-benefit from using
        Government vehicles.
III.    We interviewed IRS managers and employees, and reviewed Government property
        records to determine whether the IRS’s use of Government vehicles is being administered
        in accordance with 31 U.S.C. § 1344 and TD 74-06.
        Criminal Investigation
        A. We interviewed the responsible executives to evaluate the management and internal
           controls developed to detect and prevent abuse of the Home-to-Work Program.
        B. We obtained a download of the Criminal Investigation Management Information
           System1 for the past five fiscal years (October 1, 2005 through September 30, 2010).
        C. We reviewed the IRS’s SHIMS2 to determine whether any Government vehicles have
           been involved in accidents.
        D. We reviewed the ALERTS3 database to determine if special agents have been
           investigated for the potential misuse of a Government vehicle for the past six fiscal
           years (October 1, 2004 through September 30, 2010).


1
  The Criminal Investigation Management Information System is a management and information system used to
track the status and progress of investigations, time expended by employees, employee information, and
investigative equipment.
2
  SHIMS is the Department of the Treasury's automated workers' compensation claim management and safety
incident tracking system.
3
  The ALERTS contains information on reported allegations of employee misconduct and the subsequent actions
taken by IRS management related to each case.
                                                                                                     Page 16
                               Inspection of the Internal Revenue Service’s
                                         Home-to-Work Programs




        Small Business/Self-Employed Division
        A. We coordinated with the Treasury Inspector General for Tax Administration’s Office
           of Audit and determined issues identified by the audit team during their review of the
           SB/SE Division’s Fleet Credit Card audit.4
        B. We interviewed the responsible executives to determine the management and internal
           controls developed to detect and prevent abuse of the Home-to-Work Program.
        C. We obtained a download of the mileage data on the ExFON5 for the past five fiscal
           years (October 1, 2005 through September 30, 2010).
        D. We reviewed the SHIMS for the past five fiscal years (October 1, 2005 through
           September 30, 2010) to determine whether any Government vehicles have been
           involved in an accident.
        E. We reviewed the ALERTS database to determine if FCOs and FCAs have been
           investigated for potential misuse of a Government vehicle during the past six fiscal
           years (October 1, 2004 through September 30, 2010).
        Agency-Wide Shared Services
        A. We determined whether AWSS requested a home-to-work authorization for any of its
           employees or any IRS employees using fleet vehicles under AWSS control.
        B. We interviewed the responsible executives to determine the management and internal
           controls developed and applied to the AWSS fleet vehicle program.




4
  Treasury Inspector General for Tax Administration, Office of Audit, Audit Number 200910026, Review of Small
Business/Self-Employed Division Controls to Safeguard Fleet Charge Cards.
5
  ExFON was the integrated case processing and tracking system used by the IRS FCOs and group managers.
                                                                                                     Page 17
                         Inspection of the Internal Revenue Service’s
                                   Home-to-Work Programs




                                                                   Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
James Douglas, Supervisory Program Analyst
Michelle Griffin, Lead Program Analyst
Mark Anderson, Program Analyst
Dolores Castoro, Senior Auditor




                                                                        Page 18
                          Inspection of the Internal Revenue Service’s
                                    Home-to-Work Programs




                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Director, Specialty Programs SE:S:SP
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Small Business/Self-Employed Division SE:S
   Chief, Agency-Wide Shared Services OS:A
   Chief, Criminal Investigation SE:CI




                                                                         Page 19
         Inspection of the Internal Revenue Service’s
                   Home-to-Work Programs




                                                  Appendix IV

        Criminal Investigation
Management’s Response to the Draft Report




                                                        Page 20
Inspection of the Internal Revenue Service’s
          Home-to-Work Programs




                                               Page 21
Inspection of the Internal Revenue Service’s
          Home-to-Work Programs




                                               Page 22
Inspection of the Internal Revenue Service’s
          Home-to-Work Programs




                                               Page 23
          Inspection of the Internal Revenue Service’s
                    Home-to-Work Programs




                                                    Appendix V

  Small Business/Self-Employed Division
Management’s Responses to the Draft Report




                                                         Page 24
Inspection of the Internal Revenue Service’s
          Home-to-Work Programs




                                               Page 25
Inspection of the Internal Revenue Service’s
          Home-to-Work Programs




                                               Page 26
Inspection of the Internal Revenue Service’s
          Home-to-Work Programs




                                               Page 27
Inspection of the Internal Revenue Service’s
          Home-to-Work Programs




                                               Page 28
